No.

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL MOSLEY
(Your Name)

— PETITIONER

VS.
JOHN RICH

. — RESPONDENT(S)

PROOF OF SERVICE
Michael Mosley
, do swear or declare that on this date,
May 13
, 20JLL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
State of New York Office of the Attorney General
28 Liberty Street
New York, N.Y. 10005
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

May 13

,2021.

(Signature

Additional material
from this filing is
available in the
Clerk's Office.

